               Department of Justice
                          United States Attorney John C. Richter

                               Western District of Oklahoma



     FOR IMMEDIATE RELEASE                                                  CONTACT: Bob
                                            Troester

    Wednesday, December 20, 2006                                              405/553-8999



            AIRCRAFT ENGINE MECHANIC AND BROKER CONVICTED

     OF CONSPIRING TO SELL AIRCRAFT ENGINES THAT WERE NOT SAFE

                        Some victim purchasers were forced to make

                           emergency landings after engines failed.

Oklahoma City - John C. Richter, United States Attorney for the Western District of Oklahoma,
announced today that ALLEN D. GOOD, 36, of Moore, Oklahoma, and ROBERT EVAN
PARKER, 43, of Yukon, Oklahoma, were convicted in federal court of conspiracy and false
statements arising from their overhaul and sale of aircraft engines that were not safe and that
were accompanied by engine logbooks that misrepresented the work performed on the engines.
The jury also convicted Parker of mail fraud stemming from a victim in Utah who was induced
to mail a cashier’s check to Oklahoma City to pay for one of the faulty engines.

“This case was about lies and greed,” said U.S. Attorney John C. Richter. “These defendants
simply lied to buyers about the quality and safety of the engines leading them to believe the
engines were safe -- when if fact they were not. The jury’s verdict in this case sends a stern
message of deterrence to those in the aviation industry who might put profits ahead of safety.”
According to the indictment, during 2000, 2001, and 2002, Parker engaged Allen Good and his
father, Larry Gene Good, to overhaul aircraft engines for individuals throughout the country who
responded to classified advertisements that Parker had placed in an aviation publication. Most of
the engines fell within the “experimental” category. The Goods did business as Good Aviation
in Washington, Oklahoma. Larry Gene Good entered a plea to a lesser charge shortly before
trial.

Purchasers and their aircraft engine mechanics from various states offered testimony that the
engines sold by the defendants were not safe for use in flight. Several purchasers attempted to
fly with the engines and were forced to land immediately because of engine problems.

According to the testimony at trial, Parker provided some of the parts for the engines and caused
misleading engine data plates to be attached to some of the engines. The jury also heard
evidence that these engines contained used parts that according to the logbooks should have been
new, as well as parts stamped “not airworthy.”

After hearing three days of testimony before United States District Judge Stephen P. Friot, the
jury returned the guilty verdicts.

Allen Good faces a potential penalty of 15 years in prison on each of four counts of conviction,
in addition to a fine of up to $250,000 on each count and restitution to victims. Parker faces the
same potential penalties, plus up to five years in prison on the mail fraud conviction. Criminal
forfeiture allegations against both defendants will be determined at a later time. Sentencing will
take place in approximately ninety days.

     These convictions are part of an investigation conducted by the Federal Bureau of
Investigation, the Office of Inspector General for the Department of Transportation, the Defense
Criminal Investigative Service, and the Criminal Investigation Division of the Internal Revenue
Service. The Oklahoma City Flight Standards District Office of the Federal Aviation
Administration also provided assistance in the investigation. The case was prosecuted by
Assistant U.S. Attorneys Scott E. Williams and David L. Walling.
                                                ###
